No. 19-1062

 

IN THE

Supreme Court of the United States

CJ CHEILJEDANG CorP., CJ AMERICA, INC.,
PT. CHEILJEDANG INDONESIA,

Petitioners,
Vv.

INTERNATIONAL TRADE COMMISSION, AJINOMOTO Co.,
INC., AJINOMOTO ANIMAL NUTRITION
NORTH AMERICA, INC.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION BY RESPONDENT
AJINOMOTO

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,347 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 21, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
